Nos. 20-37 and 20-38

In the Supreme Court of the United States
XAVIER BECERRA, SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS
v.
CHARLES GRESHAM, ET AL.
STATE OF ARKANSAS, PETITIONER
v.
CHARLES GRESHAM, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

REPLY BRIEF FOR THE FEDERAL PETITIONERS

ELIZABETH B. PRELOGAR
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

TABLE OF CONTENTS

Page
I.

These cases no longer present a suitable context to
address the question presented ..................................... 3
II. If the Court considers the merits, it should clarify
that the Secretary has authority to approve
demonstration projects to test measures that
indirectly advance Medicaid’s objective of
providing health-care coverage .................................... 12
TABLE OF AUTHORITIES

Case:
Bethune-Hill v. Virginia State Bd. of Elections,
137 S. Ct. 788 (2017) ........................................................... 11
Statutes, regulation, and rule:
42 U.S.C. 1315 ............................................................... passim
42 U.S.C. 1315(a) .......................................................... passim
42 U.S.C. 1315(a)(2) ............................................................... 16
42 U.S.C. 1396-1 ............................................................... 13, 14
Exec. Order No. 14,009, § 3(a)(ii),
86 Fed. Reg. 7793 (Feb. 2, 2021) .............................................4
Sup. Ct. R. 35.3 .............................................................................1
Miscellaneous:
Elizabeth Richter, Acting Adm’r, Ctrs. for Medicare
& Medicaid Servs., Dep’t of Health & Human
Servs.:
Letter to Lori Shibinette, Comm’r, New
Hampshire Dep’t of Health & Human Servs.
(Feb. 12, 2021), https://go.usa.gov/xs4aq .....................4

(I)

II
Miscellaneous—Continued:

Page

Letter to Lori Shibinette, Comm’r, New
Hampshire Dep’t of Health & Human Servs.
(Mar. 17, 2021), https://go.usa.gov/xss2Y ....... passim
Letter to Dawn Stehle, Dir., Arkansas Medicaid
(Feb. 12, 2021), https://go.usa.gov/xs4xu ................... 4
Letter to Dawn Stehle, Deputy Dir. for Health &
Medicaid, Arkansas Dep’t of Human Servs.
(Mar. 17, 2021), https://go.usa.gov/xss2r ........ passim
Letter from Dawn Stehle, Deputy Dir. for Health
and Medicaid Dir., Arkansas Dep’t of Human
Servs., to Elizabeth Richter, Acting Adm’r, Ctrs.
for Medicare & Medicaid Servs. (Mar. 12, 2021) ............... 8

In the Supreme Court of the United States
No. 20-37
XAVIER BECERRA, SECRETARY OF
HEALTH AND HUMAN SERVICES, ET AL., PETITIONERS 1
v.
CHARLES GRESHAM, ET AL.
No. 20-38
STATE OF ARKANSAS, PETITIONER
v.
CHARLES GRESHAM, ET AL.
ON WRITS OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT

REPLY BRIEF FOR THE FEDERAL PETITIONERS

This Court granted review to address whether the
Secretary of Health and Human Services (HHS) acted
within his authority under 42 U.S.C. 1315(a) in approving certain work-related requirements as part of timelimited demonstration projects in Arkansas’s and New
Hampshire’s Medicaid programs. The approvals of
those work-related requirements—made well over a
year before the COVID-19 pandemic—have been overtaken by events.

Secretary Becerra is automatically substituted as a party for his
predecessor in office pursuant to Rule 35.3 of the Rules of this Court.
1

(1)

2
As we previously informed the Court, on February
12, 2021, HHS commenced a review of both States’
work-related requirements—which are not currently in
effect—to determine whether implementing them in the
markedly different environment facing Medicaid beneficiaries today and going forward in the pandemic’s aftermath would further Medicaid’s objectives. See Gov’t
Mot. to Vacate & Remand (Mot.) 4-7. HHS has now completed that review and has determined that testing those
requirements is not “likely to assist in promoting the objectives of ” Medicaid. 42 U.S.C. 1315(a). The agency has
accordingly withdrawn its approval of those requirements. Although the withdrawals will not take effect until the completion of any administrative appeals the
States may pursue, HHS’s action makes clear that there
is no longer any present need for this Court’s plenary review.
In light of these greatly changed circumstances, the
appropriate course is to vacate the judgments below
and remand with instructions that the underlying matters be remanded to the agency. Mot. 4-7. The private
respondents who commenced these suits agree. Mot.
7. If the Court nevertheless considers the merits, it
should simply clarify that Section 1315(a) does not preclude the Secretary, in determining whether to approve a demonstration project, from considering indirect (as well as direct) effects that the project may
have on the statutory objective of providing healthcare coverage. The Court then should vacate the court
of appeals’ judgments in light of that holding and remand to that court for further proceedings, including a
further remand to the district court or to the Secretary
as appropriate.

3
I. THESE CASES NO LONGER PRESENT A SUITABLE
CONTEXT TO ADDRESS THE QUESTION PRESENTED

As we explain in our pending motion to vacate the court
of appeals’ judgments and remand, these cases no longer
provide a suitable context in which to decide the merits of
the question presented because the landscape has materially changed since the Court granted certiorari. Mot. 4-7;
see Gov’t Reply in Support of Mot. to Vacate & Remand
1-6. The private respondents who obtained the court of
appeals’ judgments support vacatur and remand. Mot. 7.
Further developments since briefing on that motion was
completed make even clearer that plenary review in these
cases is no longer necessary or warranted.
A. This Court granted certiorari to review the court of
appeals’ judgments that invalidated HHS’s approvals of
amendments to Arkansas’s and New Hampshire’s Medicaid demonstration projects under 42 U.S.C. 1315(a). The
central features of those projects, and the focal point of
the litigation in the lower courts, were work-related requirements that the States proposed and HHS approved
to test as possible means of “promoting the objectives of ”
Medicaid. Ibid.; see Mot. 2-3; Gov’t Br. 14-21.
As the government and the private respondents have
recounted, however, developments since the decisions below have “fundamentally changed” the landscape. Private
Resp. Br. 26 (capitalization and emphasis omitted); see id.
at 23-27; Mot. 3-6. The COVID-19 pandemic as well as the
uncertainty surrounding the long-term effects on economic activity and opportunities make implementing
these work-related requirements infeasible in practice.
Mot. 3. Federal legislation in response to the pandemic
that provides an increase in federal Medicaid funding to
States bars States that accept the increase (as all States
have done) from enforcing work-related requirements

4
like those at issue here throughout the pandemic. Mot.
3-4. And on February 12, 2021, HHS informed Arkansas and New Hampshire that the agency had “preliminarily determined”—in light of the pandemic, its publichealth and economic consequences, and its uncertain
aftermath—“that allowing work and other community engagement requirements to take effect in” Arkansas and
New Hampshire “would not promote the objectives of the
Medicaid program.” 2
In informing the States of those preliminary determinations, HHS explained that it has both the authority
and ongoing responsibility to maintain continued oversight of previously approved demonstration projects to
ensure that they are still likely to assist in promoting
Medicaid’s objectives. See Mot. 4-5. HHS further explained that it had serious concerns that testing workrelated requirements in the aftermath of the COVID-19
pandemic and in the associated economic environment
presents a risk of a substantial loss of health-care coverage in the near term. Those include concerns about the
pandemic’s adverse effects on Medicaid beneficiaries’
health, economic conditions and opportunities, and access to transportation and affordable child care necessary
for beneficiaries to engage in work-related activities, as

Letter from Elizabeth Richter, Acting Administrator, Centers for
Medicare & Medicaid Servs. (CMS), HHS, to Dawn Stehle, Director,
Arkansas Medicaid 1-2 (Feb. 12, 2021), https://go.usa.gov/xs4xu; Letter
from Elizabeth Richter, Acting Administrator, CMS, HHS, to Lori
Shibinette, Commissioner, New Hampshire Dep’t of Health & Human
Servs. 1-2 (Feb. 12, 2021), https://go.usa.gov/xs4aq; see Mot. 4-5; see
also Exec. Order No. 14,009, § 3(a)(ii), 86 Fed. Reg. 7793 (Feb. 2, 2021)
(following the change in Administration, directing HHS to “review” existing demonstration projects that “may reduce coverage under or otherwise undermine Medicaid,” particularly given the pandemic).
2

5
well as the extent to which those impacts will persist beyond the pandemic. Mot. 5. HHS observed that it had
accordingly commenced a process of determining whether
to withdraw its prior approvals of the work-related requirements in the States’ projects. Ibid. HHS afforded
each State an opportunity to respond to the concerns that
HHS raised about implementing those requirements in
the public-health and economic environment, inviting
each State to submit within 30 days any additional information that in its view would support not withdrawing the
approval of its work-related requirement.
B. Since it issued the February 12 letters, HHS has
completed its review of the work-related requirements
in both States’ demonstration projects. On March 17,
2021, following the completion of its review, HHS informed each State that the agency has determined to
withdraw its previous approvals of those requirements
in the States’ projects. See Letter from Elizabeth Richter, Acting Administrator, CMS, HHS, to Dawn Stehle,
Deputy Director for Health and Medicaid, Arkansas
Department of Human Servs. 1-16 (Mar. 17, 2021) (Arkansas Withdrawal Decision), https://go.usa.gov/xss2r;
Letter from Elizabeth Richter, Acting Administrator,
CMS, HHS, to Lori Shibinette, Commissioner, New
Hampshire Dep’t of Health & Human Servs. 1-14 (Mar.
17, 2021) (New Hampshire Withdrawal Decision),
https://go.usa.gov/xss2Y. HHS’s March 17 withdrawal
decisions explained that the agency’s review confirmed
the central concern that HHS had identified in its February 12 letters: that testing the work-related requirements
during and in the aftermath of the COVID-19 pandemic
would present a significant risk of coverage losses and
harm to beneficiaries and, on balance, is unlikely to promote the statutory objectives of Medicaid. See ibid.

6
HHS observed that significant coverage loss and
harm to beneficiaries had occurred even before the pandemic in the periods in 2018 and 2019 during which each
State’s work-related requirement was in effect. Arkansas Withdrawal Decision 4-10; New Hampshire Withdrawal Decision 3-9. That experience illustrated the
risks of linking Medicaid eligibility to compliance with
work-related requirements, which would likely be exacerbated by the COVID-19 pandemic and its aftermath.
See ibid. Arkansas witnessed significant coverage loss
in that period: more than 18,000 individuals were disenrolled from coverage for failing to report the required
number of hours of qualifying activities. Arkansas
Withdrawal Decision 4; see id. at 4-6. Arkansas experienced no associated increase in employment or other
qualifying activities in that period. Id. at 6-7. Indeed,
HHS explained that the “data suggest that nearly everyone who was targeted by the Arkansas Works community engagement requirement (97 percent of the respondents 30 to 49 years of age in Arkansas in [a particular 2019 study])” either “already met the [workrelated] requirement or was exempt from it.” Ibid.
Similarly, HHS noted that nearly 17,000 beneficiaries in
New Hampshire—approximately 40% of those subject
to the State’s work-related requirement, which represents roughly one-third of the population covered under
the demonstration project—“were set to be suspended
for non-compliance and lose Medicaid coverage.” New
Hampshire Withdrawal Decision 9; see id. at 3-7. HHS
also noted a similar experience in Michigan where
80,000 beneficiaries in Michigan, nearly one-third of
those subject to the State’s work requirements, were
set to lose Medicaid coverage. Arkansas Withdrawal
Decision 7-8; New Hampshire Withdrawal Decision 7-8.

7
HHS found that “[t]he COVID-19 pandemic and the
uncertainty surrounding the long-term effects on economic activity and opportunities across the nation exacerbate the risks associated with tying a community engagement requirement to Medicaid eligibility, making
such requirements infeasible under the current circumstances.” Arkansas Withdrawal Decision 10. The agency
explained that the “[ j]ob and income loss” experienced
during the pandemic has been especially “acute among
the low-income population, those who have the least
wherewithal to withstand economic shocks and are disproportionately enrolled in Medicaid.” Ibid. For example, HHS noted that “[f]ifty-two percent of lower income
adults (annual income below $37,500) live in households
where someone has lost a job or taken a pay cut due to
the pandemic.” Id. at 10-11. HHS additionally found
that “the potential for coverage loss would be particularly harmful in the aftermath of the pandemic” in light
of “the short- and long-term negative consequences from
the loss of timely access to necessary health care” and
“uncertainty regarding the lingering health consequences of COVID-19 infections.” Id. at 13-14; see New
Hampshire Withdrawal Decision 9-11, 13.
HHS additionally explained that, although it had set
forth its concerns in the February 12 letters and invited
each State to submit any additional information that in
the State’s view might warrant not withdrawing HHS’s
approvals of the work-related requirements, neither
State submitted information that addressed HHS’s concerns. Arkansas Withdrawal Decision 3, 14-15; New
Hampshire Withdrawal Decision 2. New Hampshire
did not make any further submission. New Hampshire
Withdrawal Decision 2. Arkansas submitted a letter in

8
which it argued that HHS should not reconsider previously approved demonstration projects generally, and
should not revisit its approval of Arkansas’s workrelated requirement in light of the pandemic in particular at this time; raised questions about HHS’s “process
for reconsidering Arkansas’s approved project”; and requested an additional period of “not less than 90 days”
to submit information showing why the approval of Arkansas’s work requirement should not be withdrawn. 3
HHS observed in response that Arkansas’s submission
“did not assuage the concerns [HHS] raised in the February 12, 2021 letter.” Arkansas Withdrawal Decision 3;
see id. at 14-15. Arkansas had not “dispute[d] that the
COVID-19 pandemic has had a significant impact on the
health of Medicaid beneficiaries and that there is uncertainty about the lingering health effects of COVID-19.”
Id. at 3; see id. at 15. Nor did Arkansas “dispute the
pandemic’s likely impact on economic opportunities for
beneficiaries” to engage in work and other communityengagement activities. Id. at 15. HHS further noted that
Arkansas also had not “demonstrate[d] that it has the infrastructure in place—such as subsidies for job-skills
training, transportation, and child care—that may be necessary to make compliance with the community engagement requirements feasible for beneficiaries and prevent
large-scale coverage losses.” Ibid. Arkansas also “did not
provide evidence that such infrastructure would be in
place in the aftermath of the pandemic.” Id. at 3. And,
HHS observed, New Hampshire had declined to address
HHS’s concerns at all. See New Hampshire Withdrawal
Letter from Dawn Stehle, Deputy Director for Health and
Medicaid Director, Arkansas Dep’t of Human Servs., to Elizabeth
Richter, Acting Administrator, CMS, HHS 1-2 (Mar. 12, 2021),
https://go.usa.gov/xss2a; see Arkansas Withdrawal Decision 14.
3

9
Decision 2. Confronted with serious concerns, confirmed
by its review, that testing the work-related requirements
was not likely to advance Medicaid’s objectives—and presented with no countervailing information from the
States—HHS withdrew the approvals of those requirements in each project. See Arkansas Withdrawal Decision 15-16; New Hampshire Withdrawal Decision 14.
C. In light of HHS’s rescission of its approvals of the
work-related requirements, these cases no longer provide
a suitable context for this Court to adjudicate the merits.
The original agency actions under review have been overtaken by subsequent events. And the administrative records that HHS had developed and that the lower courts
had considered reflected a markedly different, prepandemic world that bears little resemblance to the realworld landscape today or the likely future landscape
based on the agency’s judgment. The validity of the
agency’s original approvals of the work-related requirements is now academic in light of the agency’s intervening
determinations that the work-related requirements
should not be implemented. Regardless of whether HHS
had authority to approve those requirements in 2018, it
has determined—in the exercise of the expert judgment
and discretion that Congress has vested in the agency under Section 1315—not to authorize the States to implement those requirements today.
The appropriate course in light of the greatly changed
circumstances is to vacate the judgments below and to remand with instructions that the underlying matters be remanded to the Secretary, so that the agency may determine the appropriate path forward in the first instance.
See Mot. 6-7. The private respondents agree with that approach. Mot. 7. New Hampshire takes no position. Ibid.

10
Only Arkansas opposes that disposition. Ark. Opp. to
Gov’t Mot. to Vacate & Remand 1-6. It contends that the
cases are not yet moot. Id. at 2-4. But regardless of the
Court’s jurisdiction to decide the cases, Arkansas identifies no sound justification for adjudicating the merits,
given that the original agency actions under review have
been overtaken by events. 4
Arkansas’s observation (Opp. to Gov’t Mot. to Vacate &
Remand 3-5) that the withdrawal determinations remain
subject to further review within the agency does not establish a need for plenary review of the original approvals by
this Court. As the government previously observed, and as
the withdrawal decisions note, each State is entitled to request an administrative hearing before the withdrawal of
its work-related requirements takes effect. Gov’t Br. 18
n.7; Arkansas Withdrawal Decision 16-17; New Hampshire
Withdrawal Decision 15. And although the prior approval
of Arkansas’s demonstration project expires by its terms
on December 31, 2021, Opp. to Gov’t Mot. to Vacate & Remand 5 n.2, Arkansas has intimated that it might nevertheless seek judicial review of a final withdrawal decision, see
id. at 3-5. But the prospect of further review of the withdrawal determinations provides no reason for this Court to
adjudicate the validity of the earlier, original approvals.
The withdrawal determinations are based on HHS’s
present judgment that allowing Arkansas and New
Hampshire to implement measures, approved in a preArkansas previously contended that HHS’s preliminary determinations that the work-related requirements were not likely to advance Medicaid’s objectives were too tentative to constitute a
“changed circumstance.” Opp. to Gov’t Mot. to Vacate & Remand 4.
But HHS has now rendered decisions to withdraw the Secretary’s
approvals of the work-related requirements, and those decisions
confirm that vacatur and remand is warranted.
4

11
pandemic world, that “require work and community engagement as a condition of eligibility” is “not likely to
promote the objectives of the Medicaid statute.” Arkansas Withdrawal Decision 3; New Hampshire Withdrawal
Decision 3. As Arkansas has noted (Opp. to Gov’t Mot.
to Vacate & Remand 3, 5), any review of the withdrawal
determinations would not focus on the question this
Court granted certiorari to decide: the Secretary’s authority to approve the original projects. Rather, it would
address the Secretary’s judgment embodied in the withdrawal determinations themselves not to permit testing
of the work-related requirements at this time in light of
adverse effects caused by the pandemic and its aftermath. It is that judgment by HHS, based on its current
application of Section 1315 and the relevant provisions of
the Medicaid statute, that should be the focus of any consideration of work-related requirements in demonstration projects at the present time. And whatever “substantive” and “procedural” challenges to the withdrawals
(ibid.) Arkansas might assert in future proceedings would
not warrant immediate review in the first instance in this
Court—“a court of final review and not first view,”
Bethune-Hill v. Virginia State Bd. of Elections, 137 S. Ct.
788, 800 (2017) (citation omitted).
Arkansas’s speculation that review of the withdrawal
determinations might continue “well after the conclusion of
this Term,” Opp. to Gov’t Mot. to Vacate & Remand 3—
indeed, beyond the expiration of Arkansas’s approval on December 31, 2021, id. at 5 n.2—only underscores the absence
of any need for this Court to pass upon the validity of the
original approvals. Whatever proceedings ensue in connection with review of the withdrawals, this Court’s adjudication of the approvals is not necessary today.
* * * * *

12
In short, HHS’s recent actions make clear that plenary review in these cases is no longer warranted. Instead, the appropriate course is to vacate the court of
appeals’ judgments and to remand with instructions
that the underlying matters be remanded to HHS.
II. IF THE COURT CONSIDERS THE MERITS, IT SHOULD
CLARIFY THAT THE SECRETARY HAS AUTHORITY
TO APPROVE DEMONSTRATION PROJECTS TO TEST
MEASURES THAT INDIRECTLY ADVANCE MEDICAID’S
OBJECTIVE OF PROVIDING HEALTH-CARE COVERAGE

If the Court nevertheless proceeds to decide these
cases on the merits, there is neither need nor reason to
address whether the Secretary erred in approving the
work-related requirements in Arkansas’s and New
Hampshire’s demonstration projects, given that those
approvals have now been withdrawn based on the
agency’s determination that the work-related requirements are not “likely to assist in promoting the objectives” of Medicaid. 42 U.S.C. 1315(a). The materially
altered landscape—and the expert judgments by HHS
in applying the statute, on which those withdrawal determinations rest—could complicate or potentially frustrate the Court’s review of the original approvals of the
work-related requirements.
Instead, if the Court elects to consider the merits, it
should focus on the threshold legal issue presented in
the federal government’s petition: whether 42 U.S.C.
1315(a) authorizes the Secretary to approve a demonstration project to test requirements that in his judgment are “likely to assist in promoting” (ibid.) the Medicaid program’s objective of providing health-care coverage in indirect ways. See 20-37 Pet. I. The Court
should clarify that Section 1315 does authorize the Sec-

13
retary to do so, unless the project would directly undermine that statutory objective by causing substantial coverage loss. To the extent the court of appeals’ judgments rest on a contrary understanding of the Secretary’s authority, those judgments should be vacated,
and the cases should be remanded for further proceedings, including a further remand to the district court or
to the Secretary as appropriate.
A. Section 1315 authorizes “any * * * demonstration
project which, in the judgment of the Secretary, is likely
to assist in promoting the objectives of ” the Medicaid program. 42 U.S.C. 1315(a). The court of appeals in Gresham
took as given that “the principal objective of Medicaid is
providing health care coverage.” 20-37 Pet. App. (Pet.
App.) 9a-10a (citing 42 U.S.C. 1396-1). The federal government does not dispute that overarching Medicaid objective. Although the statute promotes that objective in a
variety of particular ways, Congress undoubtedly sought
to prioritize the provision of health-care coverage.
It follows that, in determining whether a particular
demonstration project “is likely to assist in promoting
the objectives of ” Medicaid, 42 U.S.C. 1315(a), the Secretary must carefully assess the anticipated effects of
the project on the provision of coverage. The Secretary
thus could not approve a demonstration project without
making a judgment that it is likely to promote the expansion or continued provision of health-care coverage
overall. Nor could he approve a demonstration project
to test measures that would directly undermine coverage or result in significant disenrollment of individuals
who have not obtained health-care coverage by other
means—even if he believes those measures may also
have a modest indirect, downstream effect of promoting
the provision of coverage.

14
In evaluating whether a particular demonstration
project proposed by a State is likely to promote the overarching objective of providing health-care coverage, the
Secretary can and should consider other relevant factors
that in his judgment bear on whether approving the project is appropriate. The statute takes into account a
range of other considerations that are reflected in various statutory provisions, including the limits of what may
be “practicable under the conditions in [a particular]
State.” 42 U.S.C. 1396-1. And in the context of a federal
program established to furnish health-care coverage to
financially or medically needy individuals, the Secretary
may appropriately consider a project’s potential positive
or negative effects on beneficiaries’ health. But the Secretary may not prioritize those other considerations over
and above the provision of health-care coverage. The
government thus does not disagree with the private respondents’ contention (Br. 52) that “cutting costs cannot
come at the expense of substantial coverage loss.” On
that fundamental point, the government’s and the private respondents’ positions—and the court of appeals’
conclusions—are in accord.
B. The court of appeals’ opinion in Gresham, however, suggested an additional restriction, not grounded
in the statutory text or context, on the manner in which
the Secretary may evaluate a project’s potential to promote the goal of providing coverage. The court stated
that the “objectives of better health outcomes and beneficiary independence are not consistent with Medicaid.” Pet. App. 16a. It further stated that the “one
primary purpose” of Medicaid—and thus in the court’s
view the only appropriate object of the Secretary’s analysis in deciding whether to approve a Section 1315

15
demonstration project—“is providing health care coverage without any restriction geared to healthy outcomes, financial independence or transition to commercial coverage.” Ibid. (emphasis added). To the extent
the court was addressing only demonstration projects
to test measures that pursue those or other ends at the
substantial expense of promoting the provision of
health-care coverage for eligible beneficiaries, that
statement is correct—indeed, unremarkable.
The language of the court of appeals’ opinion in
Gresham, however, appears to go further. Read literally, the court’s statement could be understood to bar
the Secretary from considering the beneficial indirect
effects that certain measures—such as provisions that
improve care coordination—may have on the ultimate
objective of providing health-care coverage. Such a limitation would lack any sound basis in the statutory text,
context, or purpose. Section 1315 does not permit
demonstration projects that subjugate the Medicaid
program’s statutory objectives to other ends. But by
authorizing projects that the Secretary adjudges “likely
to assist in promoting th[ose] objectives,” 42 U.S.C.
1315(a) (emphasis added), Congress contemplated experiments that may advance the Medicaid program’s
aims—including the provision of coverage—by indirect
means, so long as those projects do not undermine those
aims directly, such as by causing coverage loss among
otherwise-eligible beneficiaries.
In practical effect, such an interpretation of Section
1315 could preclude HHS from approving even demonstration projects to test measures that indirectly promote the expansion of coverage without directly undermining that objective. For example, the Secretary may
wish to consider a demonstration project to test a new

16
delivery-of-care model—which no State is obligated to
offer—that does not directly expand coverage but restricts choice and enrolls beneficiaries diagnosed with
serious mental illness into a specialized plan that improves care coordination. HHS also may wish to consider demonstration projects to test other delivery-ofcare models that provide targeted benefits not otherwise covered under Medicaid based on beneficiary
needs. Such alternative delivery-of-care approaches
have the potential to promote the provision (even expansion) of coverage indirectly by improving care coordination and health outcomes—which may in turn help
a State conserve scarce Medicaid resources that can be
used to provide or sustain other coverage—without directly undermining that objective; indeed, such approaches may also directly promote the goal of providing coverage as well, by providing additional benefits
targeted to beneficiary need. Yet if Section 1315 were
construed categorically to preclude the agency from
considering a project’s indirect effects on the provision
of coverage, or from considering “any restriction
geared to healthy outcomes,” Pet. App. 16a, it is unclear
whether or how such approaches could pass muster.
In addition, Section 1315 authorizes the Secretary to
approve Medicaid-supported expenditures in a demonstration project for additional items or services not encompassed by the default Medicaid model. 42 U.S.C.
1315(a)(2). Pursuant to that authority, the Secretary
may wish to consider permitting States to test measures
that offer additional forms of direct assistance beyond
coverage for medical services that may contribute to improving beneficiary health—such as certain nutritional
supports, or home modifications to improve accessibil-

17
ity (where the beneficiaries do not meet the requirements for receiving such services under any other authorities). So long as a demonstration project testing
such measures promotes and does not undermine the
overarching objective of providing healthcare coverage,
the statute should not be understood to bar the Secretary from approving the project merely because it also
includes components aimed at maintaining or improving
beneficiary health in additional ways. But if pursuing
the additional “objective[ ] of better health outcomes” is
categorically “not consistent with Medicaid,” Pet. App.
16a, even as part of a broader project that the Secretary
adjudges is likely to promote the provision of healthcare coverage, demonstration projects that include such
measures could be prohibited as well.
To be sure, whether any particular demonstration
project designed to test such measures is “likely to assist in promoting the objectives of ” Medicaid is a question that Congress committed to the Secretary’s “judgment.” 42 U.S.C. 1315(a). The Secretary exercises that
discretion in the context of evaluating each specific project as a whole. But construing the statute to impose a
blanket ban on any project that promotes the provision
of health-care coverage by indirect means, that can be
said to impose a “restriction geared to healthy outcomes,” Pet. App. 16a, or that pursues improvements to
beneficiary health as an additional goal, would appear
to cut off the Secretary’s discretion even to consider
such approaches at all.
C. No party in this Court advocates such a rigid
reading of Section 1315(a). Although the private respondents argue (Br. 51-52) that HHS may not elevate
other objectives above promoting the provision of coverage, they have not urged a rule that would preclude

18
HHS from authorizing States to test alternative deliveryof-care models that do not undermine the provision of
coverage or to provide additional items or services
aimed at improving beneficiary health. And although
the private respondents contend (ibid.) that HHS may
not pursue other objectives in the guise of promoting
coverage, they do not urge reading Section 1315(a) to
forbid the Secretary from considering a project’s indirect effects—whether beneficial or adverse—on the
provision of coverage.
Instead, the private respondents have principally
contended that the court of appeals’ decision in
Gresham should not be construed as adopting, and its
summary affirmance in Philbrick should not be viewed
as applying, any categorical rule regarding projects
that pursue other objectives (such as beneficiary
health) as means to the end of promoting the provision
of coverage. See, e.g., Br. in Opp. 22-23, 25-26; Private
Resp. Br. 23, 49. But whether the court of appeals
adopted and applied an erroneous interpretation of the
statute that no party in this Court defends, or whether
its opinion in Gresham inadvertently articulated the legal standard in imprecise terms that sweep beyond its
intended holding, the appropriate course for this
Court—if it proceeds to reach the merits—is the same.
If the Court does not vacate and remand with instructions to remand to HHS, as the government and the private respondents agree is appropriate (Mot. 7), the
Court should make clear that Section 1315 does not preclude the Secretary from considering indirect effects on
coverage or from approving projects to test measures
that are likely to promote the provision of coverage indirectly, as long as the Secretary concludes that the

19
project is likely to promote Medicaid’s overarching objective of providing health-care coverage. The Court
should then vacate the court of appeals’ judgments in
light of that holding and remand to that court for further proceedings, including a further remand to the district court or to the Secretary as appropriate.
* * * * *
For the foregoing reasons, the Court should vacate
the judgments of the court of appeals and remand with
instructions that the underlying matters be remanded
to the Secretary. In the alternative, if the Court
reaches the merits, it should clarify that Section 1315
does not prohibit the Secretary from approving demonstration projects that use indirect means or encourage
healthy outcomes, as long as the Secretary concludes
that the project is likely to promote Medicaid’s overarching objective of providing health-care coverage.
The Court then should vacate the court of appeals’ judgments in light of that holding and remand to that court
for further proceedings, including a further remand to
the district court or to the Secretary as appropriate.
Respectfully submitted.
ELIZABETH B. PRELOGAR
Acting Solicitor General

MARCH 2021

